NO:

IN THE
SUPREME COURT OF THE UNITED STATES

MERRILEE STEWART, PETITIONER
V.
RRL HOLDING COMPNAY OF OHIO, ET AL., RESPONDENTS

CERTIFICATE OF SERVICE
I, MERRILEE STEWART, Petitioner, hereby certify that on this 14th day of January, 2021,1
caused true copies of the PETITION FOR WRIT OF CERTIORARI to be served via electronic
delivery and by regular United States Mail on the following counsel representing respondents
and to Dave Yost by regular United States mail.
James R. Carnes (0070005)
Matthew T. Kemp (0093136)
Shumaker, Loop & Kendrick, LLP
1000 Jackson Street
Toledo, Ohio 43604
Telephone: (419) 241-9000
Emails: jcames@shumaker.com
mkemp@shumaker.com
Attorneys for the Respondents

Dave Yost
Ohio Attorney General
150 E Gay St 21st Floor
Columbus, OH 43215
(614) 466-4986

Respectfully,

.

,

Merrilee Stewart
/s/ Merrilee Stewart
Merrilee Stewart
182 Corbins Mill Drive
Dublin, Ohio 43017
Phone: 614 395-9071
Fax: 740 965-4437
Email: Merrilee@TRGUnited.com
Merrilee Stewart, Pro Se on behalf ofMerrilee
Stewart, Petitioner

A

